                                                                  OIG Recovery Act Monthly Report

Monthly Update Report Data (sheet 1 of 3) Version 2.0
                 Reporting OIG: Department of Transportation ‐ OIG
            Month Ending Date: 05/31/2009
              Submitter Name: Madeline Chulumovich
         Submitter Contact Info: madeline.chulumovich@oig.dot.gov; 202‐366‐6512

                                                                 Recovery Act Funds Used on Recovery Act Activity
           Agency / Bureau                  Recovery Act TAFS           Sub‐Account Code    Award Type       US Indicator        State Code       Total Obligations   Total Gross 
                                                                           (OPTIONAL)                                         (ONLY for grants                          Outlays
                                                                                                                              and cooperative 
No.                                                                                                                             agreements)
    Department of Transportation ‐(69‐0131 2009 \ 2013)                                        Other            Y ‐ US                                $79,886          $52,089 
    OIG                           Transportation ‐ OIG ‐ 
  1                               Recovery Act
  2
  3
  4
  5
  6
  7
  8
  9
 10

                                                     Non-Recovery Act Funds Used on Recovery Act Activity
           Agency / Bureau               Non‐Recovery Act TAFS          Sub‐Account Code    Total FY 2009    Total FY 2009     Total FY 2010       Total FY 2010 
                                                                           (OPTIONAL)        Obligations     Gross Outlays      Obligations        Gross Outlays
No.
    Department of Transportation ‐    (69-0130 2009) Transportation -                             $623,874         $506,495
  1 OIG                               OIG
  2
  3
  4
  5
  6
  7
  8
  9
 10
                                               OIG Recovery Act Monthly Report

Monthly Update Report Data (sheet 2 of 3) Version 2.0
          Reporting OIG: Department of Transportation ‐ OIG
     Month Ending Date: 05/31/2009
       Submitter Name: Madeline Chulumovich
  Submitter Contact Info: madeline.chulumovich@oig.dot.gov; 202‐366‐6512

     Recovery Act New Hires                       Flash Reports                           Testimonies:
       Hired (monthly):   0.66               Issued (monthly):     1               Provided (monthly):   0

     Hired (cumulative):    2.05          Issued (cumulative):     1         Provided (cumulative):      3


           Complaints                 Whistleblower Reprisal Allegations                Investigations       Audits / Inspections / Evaluations / 
                                                                    Monthly Data
              Received:     25                     Received:       0                         Opened:     6                   Initiated:     0
                                                   Accepted:       0                           Active:   7                 In Process:      1
                                                                                     Pending Decision:   7                Completed:        0

                                                                             Closed without Action:      0

                                                                                      Accepted for 
                                                                                                         0
                                                                                      Prosecution:
                                                                               Prosecution Denied:       0

                                                                            Referred for Alternative 
                                                                                                         0
                                                                                         Resolution:
                                                          Cummulative Data Since 2/17/09

              Received:     33                      Received:      0         Closed without Action:      0                Completed:        1

                                                                                      Accepted for 
                                                    Accepted:      0                                     0
                                                                                      Prosecution:
                                                                               Prosecution Denied:       0

                                                                            Referred for Alternative 
                                                                                                         0
                                                                                         Resolution:
                                        OIG Recovery Act Monthly Report

Monthly Update Report Data (sheet 3 of 3) Version 2.0
        Reporting OIG: Department of Transportation ‐ OIG
   Month Ending Date: 05/31/2009
     Submitter Name: Madeline Chulumovich
Submitter Contact Info: madeline.chulumovich@oig.dot.gov; 202‐366‐6512

        No.                      OTHER TYPES OF SIGNIFICANT ACTIVITIES (Completed/On-Going During Reporting Month)
                      On May 8, the IG spoke to an executive panel at the National Academy of Public Administration on the role and mission of
          1
                      the DOT OIG including our role in evaluating DOT’s management and oversight of ARRA programs and projects.
                      On May 13, the Principal Assistant IG for Auditing and Evaluation spoke at the Potomac Forum training workshop
          2           regarding our March 31 audit report "ARRA: DOT's Implementation Challenges and the OIG's Strategy for Continued
                      Oversight of Funds and Programs."
                      On May 14, the Assistant IG for Highway and Transit Audits attended GAO's Domestic Working Group meeting focusing
          3
                      on issues related to implementing ARRA.
          4           On May 18, the DOT OIG issued an ARRA Advisory on the Department's Suspension and Debarment Program.
                      On May 19 - 21, the DOT OIG briefed via webcast, all Federal Highway Administration employees on identifying “red flag”
          5           indicators for common fraud schemes and reporting concerns about fraud, waste, or abuse.

                      On May 29, the DOT OIG held a telephone conference with select State Auditors to discuss and coordinate transportation
          6
                      related ARRA work.
          7           On May 29, the DOT OIG issued its Recovery Act Work Plan.
                      In May, DOT OIG investigations provided fraud prevention and awareness briefings to federal, state, and local
          8
                      transportation officials in 19 states.
         9
         10

        No.                                    OTHER TYPES OF SIGNIFICANT ACTIVITIES (Planned for the Future)
                      On June 4, the Principal Assistant IG for Auditing and Evaluation will be speaking at the Mid-Atlantic Intergovernmental
          1
                      Audit Forum in Ocean City, Maryland on issues related to implementing ARRA.
                      On June 11, the DOT OIG will participate in a roundtable discussion at the Federal Audit Executive Council Seminar on
          2
                      Oversight Plans for American Recovery and Reinvestment.
                      Issue "ARRA Advisories" (i.e. Flash Reports) to the Department and Congress when we identify vulnerabilities that could
          3
                      impede DOT’s ability to provide effective oversight to ARRA-funded projects and meet new requirements
         4            Continue to monitor for fraudulent schemes in the contracting process.
         5            Continue fraud prevention and awareness briefings and outreach efforts.
         6
         7
         8
         9
         10
